Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  NURSING HOME EMERGENCY 

 PREPAREDNESS AND RESPONSE 

 DURING RECENT HURRICANES





                    Daniel R. Levinson

                     Inspector General 


                      August 2006

                     OEI-06-06-00020

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                    S U M M A R Y                                  



                  OBJECTIVES
                     1.	 To determine the national and Gulf State incidence of nursing 

                         home deficiencies for lack of emergency preparedness. 


                     2.	 To examine the experiences of selected Gulf State nursing homes
                         during recent hurricanes.

                     3.	 To review the emergency preparedness plans of selected Gulf State
                         nursing homes and evaluate nursing home use of plans.


                  BACKGROUND
                  Federal law requires that Medicare and Medicaid-certified facilities
                  have written plans and procedures to meet all potential emergencies
                  and provide training to employees in emergency procedures. State
                  surveys assess whether facilities meet these requirements. Four of the
                  five Gulf States also have additional emergency preparedness
                  requirements which are typically expected to be included in facility
                  emergency plans.

                  For this study, we reviewed State survey data for emergency
                  preparedness measures both nationally and for Gulf States (Alabama,
                  Florida, Louisiana, Mississippi, and Texas) and visited selected
                  communities to interview nursing home staff, local authorities, and
                  other stakeholders. We also compared emergency plans for 20 selected
                  nursing homes affected by hurricanes in the 5 Gulf States against a list
                  of suggested provisions compiled from all Gulf State requirements and
                  guidance, a variety of published works from authoritative sources such
                  as the American Journal of Public Health, and other health care, elder
                  care and emergency preparedness experts.


                  FINDINGS
                  Nationwide, 94 percent of nursing homes met Federal standards for
                  emergency plans and 80 percent for sufficient emergency training in
                  2004-2005; compliance rates were similar for Gulf States. Among
                  Gulf States, 94 percent of nursing homes met standards for planning
                  and 79 percent met standards for emergency training of staff.
                  Multiple factors, including community evacuation orders, influenced
                  the decision of selected nursing homes to evacuate or shelter.
                  Nursing home administrators and owners most often made the decision
                  to evacuate or shelter in place, using information from local authorities

OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   i
E X E C U T I V E                       S U           M M A R Y


                   and their own past experiences. Mandatory evacuation orders had a
                   strong influence on the decision to evacuate, but administrators and
                   owners considered other factors as well, including the health of
                   residents, risks of transporting, and availability of host facilities.
                   All 20 of the selected Gulf State nursing homes experienced
                   problems, whether they evacuated or sheltered in place. In some
                   cases, problems can be tied to a lack of effective emergency planning or
                   failure to properly execute the emergency plans. In others, the
                   circumstances of the hurricane and its effect on resources were such
                   that prior planning may not have anticipated the specific problems
                   encountered, and impromptu decisions and actions were required.
                   Similar problems emerged for evacuated facilities across States and
                   communities, including transportation contracts that were not honored,
                   lengthy travel times, complicated medication needs, host facilities that
                   were unavailable or inadequately prepared, inadequate staffing,
                   insufficient food and water, and difficult reentry to facilities.
                   Administrators from 5 of the 13 selected nursing homes that evacuated
                   reported a negative impact on resident health, such as dehydration,
                   depression, and skin tears. Facilities that sheltered in place
                   encountered fewer problems, but still reported difficulty maintaining
                   staffing, supplies, and facility services, and, as with the evacuated
                   facilities, some additional problems were narrowly averted.

                   Administrators and staff from selected nursing homes did not
                   always follow emergency plans and plans often lacked suggested
                   provisions. Each of the 20 emergency plans reviewed met Federal
                   requirements on the most recent State survey. However,
                   administrators from 5 of the 20 facilities reported that they deviated
                   from or worked beyond their emergency plans during the recent
                   hurricanes, either because the plans were not updated or plans did
                   not include instructions for particular circumstances. When
                   comparing details of their plans to their reported actions, we found
                   that there was a greater degree of deviation and supplementation of
                   plans than stated by nursing home administrators.

                   Additionally, when we evaluated the completeness of plans against a
                   list of suggested provisions, we found that they were often lacking a
                   number of the provisions. For example, 6 of the 20 plans did not have
                   instructions for evacuating to an alternative site, 9 plans did not have
                   criteria or other guidance for making the decision to evacuate or
                   shelter in place, 15 plans did not have information about the specific


 OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   ii
E X E C U T I V E                       S U           M M A R Y


                   needs of residents that would allow staff to modify plans according to
                   residents’ needs, and 11 plans did not have instructions for reentry
                   following evacuation.
                   Lack of collaboration between State and local emergency entities
                   and nursing homes impeded emergency planning and
                   management. Local emergency managers often provided guidance
                   regarding the decision to evacuate or shelter in place, and four of five
                   Gulf States require local emergency managers to review nursing home
                   emergency plans. Some communities were more involved with nursing
                   homes than others, but generally, nursing homes managed evacuation
                   or sheltering in place without guidance or evacuation assistance from
                   State and local emergency entities. Evacuation assistance came
                   primarily from parent corporations, “sister” facilities, and resident and
                   staff family members. Administrators from five nursing homes that
                   evacuated and one nursing home that sheltered in place reported that
                   problems with State and local government coordination during recent
                   hurricanes contributed to problems that they encountered.


                   RECOMMENDATIONS
                   To improve nursing home emergency preparedness and ensure effective
                   execution of plans, we recommend the following:
                   The Centers for Medicare & Medicaid Services (CMS) should
                   consider strengthening Federal certification standards for nursing
                   home emergency plans by including requirements for specific
                   elements of emergency planning. CMS could develop a core set of
                   required elements for inclusion in nursing home plans with corresponding
                   changes to the Interpretive Guidelines for surveyors’ use in evaluating
                   emergency plans. These required elements should apply to all Medicare
                   or Medicaid-certified facilities, and also be tailored to address specific
                   local risks. In developing this set of core elements, CMS could collaborate
                   with State emergency management entities, nursing home associations,
                   and other parties knowledgeable about nursing home operations or
                   emergency preparedness.
                   CMS should encourage communication and collaboration between
                   State and local emergency entities and nursing homes. This effort
                   could include providing guidance and technical assistance to States,
                   facilitating a dialogue between nursing homes and emergency
                   management authorities, and encouraging local emergency
                   management review of facility emergency plans.

 OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   iii
E X E C U T I V E                       S U           M M A R Y 




                   AGENCY COMMENTS
                   CMS concurred with both recommendations and outlined efforts
                   underway to strengthen Federal certification standards and encourage
                   collaboration between State and local emergency entities and nursing
                   homes. These efforts include reviewing regulatory requirements and
                   interpretive guidelines for potential revision, implementing a
                   communication strategy to disseminate information among States, CMS
                   and health care facilities, and developing guidance for improved
                   collaboration among Federal, State and local emergency entities.

                   This evaluation was conducted in conjunction with the President's
                   Council on Integrity and Efficiency (PCIE) as part of its examination of
                   relief efforts provided by the Federal Government in the aftermath of
                   Hurricanes Katrina and Rita. As such, a copy of the report has been
                   forwarded to the PCIE Homeland Security Working Group, which is
                   coordinating Inspectors General reviews of this important subject.




 OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   iv
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 7

                   National and Gulf State Emergency Preparedness . . . . . . . . . . . . . 7 


                   Decision to Evacuate or Shelter in Place . . . . . . . . . . . . . . . . . . . . . 8 


                   Problems in Evacuating and Sheltering in Place. . . . . . . . . . . . . . 10 


                   Evaluation of Selected Nursing Homes’ Emergency Plans . . . . . . 16 


                   Nursing Home Collaboration With Emergency Entities . . . . . . . 18 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

                   Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 

                   A: Gulf State Requirements for Emergency Plans . . . . . . . . . . . . 28 


                   B: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 


                   C: Suggested Provisions for Emergency Plans . . . . . . . . . . . . . . . 34 


                   D: Descriptions of Selected Hurricanes. . . . . . . . . . . . . . . . . . . . . 36 


                   E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41 

Δ   I N T R O D U C T I O N                                                   



                  OBJECTIVES
                     1.	 To determine the national and Gulf State incidence of nursing 

                         home deficiencies for lack of emergency preparedness. 


                     2.	 To examine the experiences of selected Gulf State nursing homes
                         during recent hurricanes.

                     3.	 To review the emergency preparedness plans of selected Gulf State
                         nursing homes and evaluate nursing home use of plans.


                  BACKGROUND
                  Nursing home residents rely on nursing home staff to plan for and
                  execute appropriate procedures to protect them during times of disaster.
                  However, nursing home tragedies associated with recent hurricanes in
                  the Gulf States have raised concerns about plans and coordination with
                  State and local resources. In a congressional briefing, the Government
                  Accountability Office indicated that “[h]urricanes Katrina and Rita were
                  incidents of national significance that highlighted the challenges
                  involved in evacuating vulnerable populations, including those in
                  hospitals and nursing homes.”1 This study of facility emergency
                  planning and execution responds to a request from Senator Herb Kohl,
                  ranking member of the U.S. Senate Special Committee on Aging.2
                  Federal Requirements for Nursing Home Emergency Preparedness
                  Sections 1819 and 1919 of the Social Security Act establish
                  requirements for nursing home participation in the Medicare and
                  Medicaid programs. The Secretary of the Department of Health and
                  Human Services is responsible for ensuring that these requirements
                  and their enforcement “are adequate to protect the health, safety,
                  welfare, and rights of residents and to promote the effective and
                  efficient use of public moneys.”3 Pursuant to Federal regulations,
                  certified facilities are required to have “detailed written plans and
                  procedures to meet all potential emergencies and disasters,” and must
                  “train employees in emergency procedures when they begin work in the
                  facility, periodically review procedures, and carry out unannounced staff
                  drills.”4
                  The State Operations Manual also requires that facilities consider, in
                  the development of plans and training, “geographic location and the
                  types of residents served.”5 Potential emergencies and disasters include
                  a wide range of conditions, from a localized to a community-wide event.


OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   1
I N T R O D        U C T             I O N


                    Localized events impact only a single facility, whereas a
                    community-wide event may impact all facilities within a specific
                    geographical area. Facilities may include in their written plans
                    additional or more specific measures that are responsive to State and
                    local authorities.6
                    Verification of Nursing Home Compliance with Requirements
                    The Omnibus Budget Reconciliation Act of 1987 established a survey
                    and certification process for the Centers for Medicare & Medicaid
                    Services (CMS) and States to verify that Federal standards are
                    maintained in nursing homes certified for participation in the Medicare
                    and Medicaid programs. CMS has responsibility for enforcement of
                    these standards, and contracts with State agencies to survey each
                    facility to certify compliance with Federal standards.7
                    Standard Surveys. State survey agencies are required to conduct
                    standard surveys at least every 15 months or in abbreviated versions
                    following complaints.8 The surveys include two measures of emergency
                    preparation: having an emergency plan in place, and training staff in
                    emergency procedures.9 To evaluate plans and training, CMS developed
                    Interpretive Guidelines that instruct surveyors to ensure that the
                    facility reviews its plan periodically and tailors it to the facility’s
                    geographic location and to the types of residents it serves.10
                    When State surveyors determine that the facility plan or training does
                    not meet Federal requirements, they issue a “deficiency tag” that
                    corresponds to specific regulations. The following are criteria stated in
                    the surveyor guidelines for these tags:
                    o	 F517—“The facility must have detailed written plans and
                        procedures to meet all potential emergencies and disasters, such as
                        fire, severe weather and missing residents,”11 and
                    o	 F518—“The facilities must train all employees in emergency
                        procedures when they begin to work in the facility, periodically
                        review the procedures with existing staff, and carry out
                        unannounced staff drills using those procedures.”12
                    Life Safety Code Surveys. States also conduct Life Safety Code (LSC)
                    surveys, often in conjunction with standard surveys.13 The LSC
                    component is a compilation of fire safety requirements published by the
                    National Fire Protection Association14 and incorporated into Medicare
                    and Medicaid regulations.15 Although the LSC focuses on fire safety
                    planning and conducting fire drills, its provisions are relevant to


 OEI-06-06-00020    N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   2
 I N T R O D          U C T               I O N



                  evacuation during other emergencies (such as the use of prescribed
                  methods for carrying fragile, nonambulatory residents to safety). CMS
                  Interpretive Guidance for LSC surveyors includes details regarding
                  what the evacuation plan should include at a minimum, including
                  questions for staff regarding the emergency plan, fire drill procedures,
                  and details regarding fire drills.16 As with the standard surveys, to
                  ensure adequate emergency preparedness, LSC surveyors issue
                  deficiency tags when they determine that plans and training do not
                  meet requirements. The following are criteria stated in the surveyor
                  guidelines for these tags:
                  o K48—“There is a written plan for the protection of all patients and for
                     their evacuation in the event of an emergency”; and
                  o	 K50—“Fire drills are held at unexpected times under varying
                      conditions, at least quarterly on each shift. Staff are familiar with
                      procedures and aware that drills are an established routine.
                      Responsibility for planning/conducting drills is assigned only to
                      competent persons who are qualified to exercise leadership.”17
                  Additional Federal Oversight in Emergency Preparedness
                  State and local authorities have primary responsibility for emergency
                  management and the Federal Government plays a limited role. The
                  Stafford Act specifies that the Federal Government assist State and
                  local governments with their responsibilities during disasters by
                  encouraging the development of comprehensive disaster preparedness
                  and emergency assistance plans.18
                  Each local jurisdiction is required to develop an Emergency Operations
                  Plan (EOP) that defines the scope of preparedness under the guidelines
                  of the National Incident Management System.19 Guidance for
                  development of the EOP specifies that the plan’s evacuation directions
                  include specific provisions for evacuating special needs individuals,
                  including nursing home residents.20
                  Additionally, Federal law requires that States establish a Long Term
                  Care Ombudsman Program, funded by the Administration on Aging
                  (AoA), to advocate for the care of residents in long term care facilities.
                  The ombudsman program is responsible for monitoring policies that
                  pertain to residents in long term care facilities.21 As a networking
                  organization, AoA coordinates Government and nongovernment
                  agencies, outreach programs, public issue forums, and disaster relief.
                  AoA also directs efforts between Federal, State, and local authorities to
                  meet the needs of the elderly population.

OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   3
   I N T R O D            U C T               I O N 





                  Gulf State Requirements for Nursing Home Emergency Preparedness
                  Four Gulf States (Florida, Louisiana, Mississippi, and Texas) impose
                  additional requirements for nursing home emergency planning. 22
                  Compliance with these additional provisions is verified by State
                  licensing agencies in their periodic review of facilities to renew State
                  licensure. Florida and Texas have the most extensive additional
                  requirements. Louisiana developed a model plan to provide guidance to
                  nursing homes for emergency planning. Mississippi and Florida require
                  facilities to use, as a minimum standard, criteria specified by Florida’s
                  Agency for Health Care Administration.23 (Appendix A provides a
                  summary of all Gulf State requirements.).\


                  METHODOLOGY
                  For this study, we (1) analyzed national and Gulf State survey data
                  indicating noncompliance with Federal requirements for emergency
                  plans and training; (2) collected information about the experiences of a
                  selection of nursing homes affected by four hurricanes in 2004 or 2005
                  (Ivan, Katrina, Rita, and Wilma), primarily through interviews with
                  facility staff and community authorities; and (3) compared emergency
                  plans from these selected nursing homes to a list of provisions compiled
                  from informed sources. (See Appendix B for detailed methodology.)
                  National and Gulf State Deficiencies
                  We used CMS’s Online Survey, Certification, and Reporting (OSCAR)
                  data to determine the number of deficiencies nursing homes received for
                  insufficient emergency plans and failure to adequately train staff for
                  emergencies during calendar years 2004 and 2005 (nationally and
                  specifically for Gulf States). OSCAR maintains information on the four
                  most recent standard surveys as well as complaint-generated surveys.
                  Community and Nursing Home Selection
                  The process of nursing home selection began with the review of
                  localities. Localities were chosen in a manner to ensure diversity in
                  population size and proximity to a hurricane (see Box 1 on page 5 for
                  hurricane details). Facilities within these localities were chosen in a
                  manner to ensure diversity in size, ownership, and past State survey
                  performance on emergency preparedness measures.24 We selected a
                  total of 20 nursing homes that experienced 1 of the 4 hurricanes, and
                  were located in 9 counties across 5 Gulf States (Alabama, Florida,
                  Louisiana, Mississippi, and Texas) with 4 nursing homes selected per

OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   4
I N T R O D               U C T              I O N




                         State. Eleven nursing homes evacuated before the hurricane, two
                         sheltered in place and then evacuated after the hurricane, and seven
                         sheltered in place and never evacuated. Selected localities included a
                         large metropolitan area, several mid-size cities, and both suburban and
                         rural communities.



                    Box 1: Selected Hurricanes
                    All selected hurricanes were Category 3 at landfall, with winds of 111-130
                    miles per hour and storm surges of 9-12 feet above normal.


                                                                                                                  Alabama


                                                                                                 Mississippi
                           Texas

                                                                                    Louisiana
                                                                                                                                     Florida
                                                                                                            Hurricane Ivan

                                                                    Hurricane Rita                 Hurricane Katrina




                                                                                                                             Hurricane Wilma



                    Ivan (September 2004): 25 deaths and estimated financial loss of $14 billion.
                    Katrina (August 2005): 1,336 deaths and estimated financial loss of $75 billion.
                    Rita (September 2005): 62 deaths and estimated financial loss of $10 billion.
                    Wilma (October 2005): 5 deaths and estimated financial loss of $12 billion.

                  Source: National Weather Service National Hurricane Center Tropical Prediction Center.



                         Data Collection
                         We performed site visits to each of the selected nursing homes to
                         conduct interviews with administrators and staff and to collect facility
                         emergency plans and training records. We also visited local government
                         and aging services agencies in each nursing home’s city and county.
                         During each visit, we interviewed government authorities and local
                         nursing home ombudsmen and collected community emergency plans.
                         For each State, we conducted telephone interviews with officials from
                         the emergency mangement office, nursing home licensing division
                         (responsible for surveying facilities), nursing home associations,
                         departments of aging services, and long term care ombudsmen.


OEI-06-06-00020          N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES              5
I N T R O D        U C T             I O N


                    Evaluation of Nursing Home Emergency Plans—“Suggested Provisions”
                    To assess the content of emergency plans from selected nursing homes,
                    we compiled a list of emergency plan provisions, suggested by a number
                    of informed sources, to compare to the actual plans. A complete list of
                    sources is provided in Appendix C and includes all Gulf State
                    requirements and guidance, and a variety of published works from
                    reputable sources such as the American Journal of Public Health.
                    Additionally, we consulted with representatives from nursing home
                    associations and emergency management agencies in all five Gulf
                    States, and with other health care, elder care, and emergency
                    preparedness experts.25 These informed sources were fairly consistent
                    in identifying key provisions which they believe should be included in
                    an effective emergency plan and represent basic tenets of emergency
                    management. We hereafter refer to this recommended list as
                    “suggested provisions.” A complete list is provided in Appendix C. We
                    then reviewed the emergency plans of the 20 selected nursing homes to
                    determine whether they included each of the suggested provisions.
                    Data Limitations
                    Although we diversified our selection of nursing homes, the purposive
                    method used does not allow inference of results either to the Gulf States
                    or the Nation.
                    Quality Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-06-06-00020    N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   6
 Δ          F I N D I N G S 




     Nationwide, 94 percent of nursing homes met                             Of the 16,125 nursing homes
    Federal standards for emergency plans and 80                             surveyed during 2004 and 2005,
                                                                             most met Federal standards,
 percent for sufficient emergency training in 2004
                                                                             with 6 percent cited for planning
2005; compliance rates were similar for Gulf States
                                                                             deficiencies and 20 percent cited
                                  for training deficiencies (see Table 1). A greater proportion of the
                                                                          26

                                  deficiencies issued for both inadequate emergency planning and
                                  training were from LSC surveys rather than standard surveys. The
                                  greater frequency of citations from LSC surveys may be a result of LSC
                                  surveyors focusing more directly on facility safety provisions, while
                                  standard surveyors cover a much broader range of issues addressing
                                  multiple aspects of nursing home resident health and well being.27


   Table 1. Nursing Homes Cited with Deficiencies for Emergency Planning and Training:
   National and Gulf States (2004-2005)


   NATIONAL
                                                                             2004                                     2005                    Total**
                                                                     Facilities                    %          Facilities      %        Facilities           %
                                                                    (n = 15,135)                             (n = 15,011)             (n = 16,125)
   Planning Deficiencies
   Standard Survey F517                                                   168                      1.1           161         1.1             307        1.9
   Life Safety Code K48                                                   262                      1.7           420         2.8             655        4.1
   Total Facilities with Planning Deficiencies*                           425                      2.8           565         3.8             929        5.8
   Training Deficiencies
   Standard Survey F518                                                   467                   3.1              438          2.9         851            5.3
   Life Safety Code K50                                                  1,326                  8.8             1,624        10.8        2,695          16.7
   Total Facilities with Training Deficiencies*                          1,685                 11.1             1,954        13.0        3,265          20.3

   GULF STATES
                                                                              2004                                    2005                     Total
                                                                      Facilities                   %          Facilities      %        Facilities           %
                                                                     (n = 2,375)                             (n = 2,379)              (n = 2,526)
   Planning Deficiencies
   Standard Survey F517                                                    13                      <1             7          <1               20        <1
   Life Safety Code K48                                                    62                      2.6           80          3.3             135        5.3
   Total Facilities with Planning Deficiencies*                            75                      3.2           87          3.7             155        6.1
   Training Deficiencies
   Standard Survey F518                                                    92                   3.9              106          4.5            193         7.6
   Life Safety Code K50                                                   194                   8.2              211         8.9             381        15.1
   Total Facilities with Training Deficiencies                            276                  11.6              301         12.7            535        21.2
 *The total planning and training deficiencies is not the sum of the standard survey and LSC deficiencies because some facilities had one of each type,
 resulting in some overlap in the categories.
 **Totals do not equal the sum of 2004 and 2005 because some nursing homes were cited in both years.
 Source: Office of Inspector General analysis of OSCAR data for CYs 2004-2005.




      OEI-06-06-00020             N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES              7
   F   I N D I N G        S


                         The proportion of nursing homes with emergency preparedness
                         deficiencies in Gulf States was similar to the national level. Six percent
                         of the 2,526 facilities surveyed in Gulf States during 2004 and 2005
                         were cited with deficiencies for not having adequate emergency plans in
                         place, and 21 percent were cited for insufficient staff training. As at the
                         national level, LSC surveyors issued the majority of deficiencies
                         regarding emergency preparedness in the Gulf States. All of the
                         20 nursing homes we selected for onsite evaluation were determined by
                         State surveyors to have adequate emergency plans in place in their
                         most recent 2005 State survey. However, 3 of the 20 selected nursing
                         homes were cited for not sufficiently training staff.28
                         The current Federal survey standards and guidance to surveyors do not
                         specify the content that emergency training should include. Nor do they
                         require surveyors to ensure that emergency plans include specific
                         instructions for evacuating and sheltering in place. Based on interviews
                         with surveyors in Gulf States and documentation of actual deficiencies
                         cited, nursing homes are commonly cited for inadequate emergency
                         plans for the following reasons. 29 The plan:
                         o	 does not account for all types of emergencies, e.g., hurricanes, fires;

                         o	 does not include provisions for the care of residents, e.g.,
                              instructions for special needs residents; and/or
                         o	 is not reviewed by staff and updated annually.

                         Additionally, nursing homes were cited for training deficiencies when
                         staff were unable to demonstrate knowledge of procedures to surveyors,
                         or when they were unable to produce records demonstrating that they
                         provided training to all staff at the frequency required.



Multiple factors, including community evacuation                 Of the 20 nursing homes we
                                                                 selected for onsite evaluation,
       orders, influenced the decision of selected
                                                                 11 evacuated before the hurricane,
   nursing homes to evacuate or shelter in place
                                                                 2 sheltered in place then
                         evacuated after the hurricane, and 7 sheltered in place and never
                         evacuated. All nursing home administrators reported that an
                         evacuation can cause physical and mental stress on nursing home
                         residents, and consequently is not necessarily the best course of action
                         for residents during hurricanes. Administrators also reported that
                         sometimes sheltering in place is the safer (and also less expensive)
                         alternative, particularly in the case of hurricanes during which storms

       OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   8
F   I N D I N G 
S


                      can quickly shift and reduce risk to residents and staff. Administrators
                      reported that they consider a wide range of factors in making the
                      decision whether to evacuate or shelter in place, such as the storm’s
                      characteristics, the facility structure and location, the availability of
                      resources, and the health status of residents.
                      Deciding to evacuate. For 9 of the 11 nursing homes that evacuated
                      before the hurricane, administrators reported that they collaborated
                      with facility owners in making the decision to evacuate. In the other
                      two cases, emergency management authorities mandated evacuation.30
                      In addition to these two mandatory evacuation orders, four facilities
                      evacuated even though the evacuation order was “voluntary” or there
                      was no order at all. We found differing interpretations of what
                      mandatory or voluntary evacuation orders mean among both
                      administrators and government authorities. But in most cases,
                      facilities reported that a voluntary order was a “suggestion” to evacuate
                      or served as a precursor to a mandatory order, and that a mandatory
                      order meant the facility must evacuate or risk losing access to
                      emergency services. Nursing home administrators often reported that
                      they did not consider an evacuation order a clear mandate.

                      In the case of the two nursing homes that evacuated after initially
                      sheltering in place, their decision to evacuate was based on
                      circumstances after the storm passed. Administrators from these
                      facilities reported that they were uncertain about their electricity and
                      water supply, and were concerned with resident and staff safety in light
                      of reduced police capability.
                      Deciding to shelter in place. Although the factors guiding decisions to
                      shelter in place were similar to those for evacuation, circumstances
                      caused these administrators and owners to determine that the risks
                      were greater in evacuating than in sheltering in place. Administrators
                      at these nursing homes reported the following: facility structure was
                      sound enough to withstand expected high winds, location limited the
                      degree of expected flooding, staff were proficient in emergency response
                      and willing to shelter in place with residents, the community was likely
                      to augment facility resources, and the poor condition of residents made
                      travel dangerous, e.g., one facility had a large number of hospice
                      patients. Additionally, some of these administrators reported that they
                      were determined to avoid evacuating if possible due to negative past
                      experiences with evacuation. Administrators from two of the nine
                      nursing homes that sheltered in place reported that they did not


    OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   9
  F   I N D I N G        S


                        evacuate in part because they were unable to locate enough space in
                        other nursing homes to accommodate all residents.

All 20 of the selected Gulf State nursing homes                Administrators and staff in selected
                                                               nursing homes reported a range of
experienced problems, whether they evacuated
                                                               experiences, but similar problems
                            or sheltered in place
                                                               emerged across States,
                        communities, and facilities. In some cases, reported problems could be
                        tied to a lack of planning or failure to execute emergency plans. In
                        others, the circumstances of the hurricane and its effect on resources
                        and community services were such that prior planning may not have
                        anticipated the specific problems encountered, and impromptu decisions
                        and actions were required.
                        All 13 nursing homes that evacuated encountered problems in the process
                        of leaving and returning to their facilities
                        Administrators of nursing homes that evacuated reported problems at
                        each stage of the evacuation process, the most prominent including:
                        o transportation contracts were not always honored,

                        o evacuation travel took longer than expected,

                        o medication needs complicated travel,

                        o host facilities were unavailable or inadequately prepared,

                        o facilities could not maintain adequate staff,

                        o food and water shortages occurred or were narrowly averted, and

                        o prompt return of residents to facilities was difficult.

                        Transportation contracts were not always honored. All 13 nursing homes
                        that evacuated reported they had prior contracts for transportation
                        (10 facilities provided documentation), but services were not available
                        for 5 of these because the vehicles were in use by other parties in the
                        hurricane’s path. This reportedly happened in part because multiple
                        nursing homes contracted with the same companies, typically the
                        company used for routine ambulance services. These nursing homes
                        often discovered the problem only days or hours prior to the evacuation,
                        and were forced to find alternate transportation. Administrators from
                        two nursing homes resorted to the telephone directory to locate
                        transportation resources. Others were able to use connections with
                        other nursing homes and within the community to secure assistance
                        from sources, including churches, school districts, and taxicab
                        companies.

      OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   10
 F         N D           N G S


                             Evacuation travel took lonoer than expected. Four of the thirteen evacuated
                             nursing homes had problems during the trips from their facilities to
                             host facilities, and three of these were forced to move residents more
                            than once. The median trip time to a host facility was 3 hours, but in
                            the case of one facility evacuating from Houston prior to Hurricane Rita,
                            the trip to the host facility took as long as 19 hours (see Box 2 for a
                            description ofthe experience). Problems occurred primarily when trips
                            took longer than anticipated, and either the weather, traffc, inadequate
                            vehicles, or limits in supplies made residents and staff uncomfortable.

     Box 2: The Experience of One Selected Nursing Home In Transit

     The nursing home administrator and other staff reported that the facility emergency plan had minimal instructions
     for evacuation. For example, there was instruction regarding packing food, but no guidance regarding water or
     medication. The contracted transportation was unavailable and fewer than a quarter of staff remained to
     evacuate with residents. A mix of staff and borrowed vehicles was cobbled together in the final hours before the
     hurricane made landfall, and a nine-vehicle convoy began what normally would be a 2-hour trip to a campground.

     The convoy was part of a widespread evacuation of a large metropolitan area. Traffc on all outbound highways
     was slow. Staff reported that temperatures reached 104 degrees and water among residents and staff quickly
     reached ration leveL. Other supplies were also inadequate. For example, one resident vomited early in the trip
     and staff had no cleaning materials. The drivers could not attempt an alternative route because none had maps.
     After 4 hours, one of the vans broke down and residents were unloaded and crowded into other vehicles. The
     next morning, after 12 hours on the road, another van broke down and residents were loaded into the remaining
     vehicles. Oxygen became low, and after callng the nearest town from a cell phone, the local emergency
     management service delivered an inadequate number of cylinders. Temperatures by midday again climbed over
     100 degrees and the air conditioners in the two resident vans were inoperable.

     Once the convoy got close to the camp, camp managers sent two replacement vans and residents were
     redistributed again; however, only one of the camp vans had air conditioning. All vehicles had been out of water
     for hours and staff were able to change incontinence supplies only once. Other than one resident who was given
     a nurse's personal insulin, none of the residents received medication. Residents arrived at the camp after
     19 hours in transit. All residents survived, but several were treated for cuts and bedsores resulting from the trip.
     Source: Summary of evacuation description reported by the facility administrator.


                            Medication needs complicated travel. Three of the thirteen evacuated
                            facilities had problems with medication. Administrators reported this
                            occurred because trips took longer than expected, medications were not
                            readily available during transit, or medications were improperly packed
                            and supervised. For example, during one evacuation staff had
                            medication on the vehicles but had not packed the equipment needed to
                            administer the medication. In another case, a resident became
                            disruptive and required sedation, but his medication was located on a
                            different vehicle. Staff from another selected nursing home kept
                            medications in small plastic bags with individual residents, and had to
                            prevent residents from inappropriately exchanging medications.



OEI.06.06.00020             NURSING HOME EMERGENCY PREPAREDNESS AND RESPONSE DURING RECENT HURRICANES        11
F   I N D I N G 
S


                      Host facilities were unavailable or inadequately prepared. Twelve of the
                      thirteen selected nursing homes that evacuated reported they had
                      formal agreements with host facilities to temporarily house residents in
                      the case of an evacuation (eight facilities provided documentation). The
                      remaining nursing home had an informal, verbal agreement.
                      Contracted host facilities were available when needed for 11 of the
                      13 selected nursing homes that evacuated. In the two cases where
                      facilities were not available, the facilities either evacuated themselves
                      or had already reached capacity with residents from other contracted
                      nursing homes. These administrators sought alternatives, as they did
                      for transportation, through connections with other nursing homes and
                      community entities. In three Gulf States, nursing home associations
                      and State human services offices actively sought facilities that could
                      provide beds for nursing home residents throughout their States.

                      Seven of the selected nursing homes had agreements with multiple host
                      facilities, meaning that residents were evacuated to different host sites
                      depending on their needs and the availability of beds. For five of the
                      seven facilities, these agreements were with nursing homes under the
                      same ownership or within the same nonprofit network, but the other
                      two facilities had agreements with alternative sources, such as schools,
                      churches, and camps.31 When nursing homes had “sister” facilities, they
                      often shared other aspects of emergency management, such as
                      transportation, staff, and supplies.

                      Placing residents in alternative shelters not designed for the care of
                      elderly and disabled posed particular challenges. When evacuated to
                      other nursing facilities or hospitals, residents were integrated into the
                      existing care routine and usually had access to necessary supplies, staff,
                      and equipment, but when evacuated to schools, churches, or camps,
                      staff had to create the proper environment. One nursing home had an
                      agreement to shelter at a school and placed residents in a gymnasium
                      on air mattresses that needed to be continually reinflated. At the same
                      time, the generator failed at the school and water was shut off for
                      24 hours due to the storm. Because of these problems, residents
                      returned to their facility and evacuated 3 days later to a host nursing
                      home.

                      Even when placed in an adequate host facility, problems with resident
                      care sometimes occurred. Administrators of three nursing homes that
                      evacuated to other nursing homes or hospitals reported problems with
                      supplies and inadequate staffing. One host nursing home lacked both


    OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   12
   F   I N D I N G             S


                  beds and supplies to accommodate residents, and did not have locks
                  needed to protect residents with Alzheimer’s disease from wandering. A
                  nursing home that evacuated to an unused portion of a full-service
                  hospital encountered outdated facility structures and unusable medical
                  equipment and supplies.
                  Facilities could not maintain adequate staff. Six of the thirteen nursing
                  homes reported that they had staffing shortages during the evacuation,
                  both at the host facility and when returning to the facility. In some
                  cases, facilities had a fairly large number of staff but lacked staff with
                  necessary qualifications. For example, one facility reported there were
                  not enough registered nurses when they reached the host facility. In
                  this case, the available nurses worked overtime but reported they were
                  ultimately unable to fully cover all resident needs. Two selected
                  nursing home administrators reported that some staff refused to assist
                  with facility evacuation, but most administrators reported staff were
                  available and dedicated to meeting the needs of facilities and residents.
                  All evacuating nursing homes allowed staff to bring families along for
                  the evacuation; a decision that administrators reported was critical to
                  retaining staff during the evacuation.
                  Food and water shortages occurred or were narrowly averted. Two of the
                  thirteen selected nursing homes reported shortages of food and water.
                  This occurred even though the emergency plan for one of the facilities
                  specified the amount of food needed. Other administrators reported
                  many other potential shortages were averted by utilizing sources not in
                  their emergency plans, such as local churches, and that these
                  supplements often came a short time before supplies would have run
                  out. As with staffing problems, food and water supply problems
                  appeared to be caused at least in part by a lack of prior planning. For
                  8 of the 13 nursing homes that evacuated (including both of the facilities
                  with shortages), the facility emergency plan specified the amount of food
                  and water they should have if they sheltered in place, but did not
                  specify the amounts that should be taken when evacuating. The
                  emergency plans for 2 evacuated nursing homes did not address the
                  provision of water during evacuation, and the plans for 10 did not
                  address the amount or type of food to be packed.
                  Prompt return of residents to facilities was difficult. Ten of the thirteen
                  nursing homes reported problems returning to their facilities after
                  absences ranging in duration from 24 hours to several months.
                  Difficulties ranged from scheduling staff to prepare the facility for


OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   13
           F    I N D I N G                     S

                              residents’ return to arranging transportation for residents who were
                              provided housing out-of-State. Five of the thirteen facilities sustained
                              damage from the hurricanes; three suffered relatively minor damage,
                              such as broken windows and partial flooding, but the remaining two,
                              both in Mississippi, were completely destroyed (see Figure 1 on
                              page 14).32 Even when nursing homes did not suffer actual damage,
                              administrators reported that their facilities often needed substantial
                              cleaning and restocking before residents could return. Following
                              hurricane Katrina, Louisiana required inspections by State licensing
                              surveyors before residents could return.

                              Seven of the thirteen nursing homes reported problems with staffing
                              upon reentry, either because staff were delayed or were unable to return
                              to work due to the widespread disaster. In communities that were hit
                              by Katrina, some staff were unable to assist because of the extreme
                              difficulty in traveling and the extent of devastation to their own
                              property. In these communities, city managers and other local leaders
                              reported that there is still a lack of housing for low-income staff.
                              Several staff from selected Louisiana and Mississippi nursing homes
                              lost their homes and all belongings in the storm. To help
                              administrators operate during the transition, one facility’s owners sent
                              staff from other facilities to fill in until new staff could be hired.


Figure 1. Photo of Destroyed Selected Nursing Home in Mississippi




Source: Office of Inspector General Photo 2006.




   OEI-06-06-00020            N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   14
F   I N D I N G 
S


                      Administrators from 5 of the 13 nursing homes that evacuated reported a
                      negative impact on resident health
                      Negative health effects were typically isolated to a small portion of
                      residents and could not usually be linked to particular facility problems
                      during evacuation. Of the administrators that reported a negative
                      impact on resident health in their nursing homes, four reported that
                      residents had physical problems and three reported that the evacuation
                      was psychologically difficult, with some residents showing signs of
                      depression (one facility reported both of these problems). Some of this
                      negative impact was short term, as in the case of one nursing home
                      where a lack of necessary provisions during evacuation, such as water,
                      bandages, and incontinence supplies, caused residents to be
                      uncomfortable and even temporarily dehydrated. In other cases, the
                      impact was long term, such as a resident who was hospitalized due to a
                      fall at the host facility caused by his unfamiliarity with his new
                      environment, and residents who were reported to have developed skin
                      tears and pressure sores during transport.
                      Nursing homes that sheltered in place encountered fewer problems, but
                      they were severe enough that two of the nine facilities later evacuated
                      Facilities that sheltered in place most often reported problems with
                      staffing and uncertainty over their access to community resources. In
                      two cases, these problems caused the facilities to evacuate after the
                      storm. Two nursing homes that sheltered in place and did not later
                      evacuate also reported difficulties with staffing, yet neither of these
                      problems appeared to be substantial. In both cases, administrators
                      called in additional staff from their own roster or a “sister” facility to
                      cover for staff that were leaving the area. None of the nine facilities
                      that sheltered in place reported problems with supplies, but just as with
                      the evacuated facilities, some shortages were narrowly averted.
                      Facilities that sheltered in place received supplies such as food and
                      water through donations from local authorities or service organizations.

                      Power was disrupted for five of the nine facilities that sheltered in
                      place, with reported outages ranging from 2 hours to as long as 4 weeks.
                      All of these facilities had generators that worked when they were
                      needed. Some administrators reported that they plan to purchase
                      larger generators for future storms because they found that providing
                      air conditioning in high temperatures taxed their generators to the
                      maximum or did not allow for more than lighting and fans. An
                      administrator from one of the nine facilities that sheltered in place
                      reported a negative impact on resident health—a tree fell into the

    OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   15
  F   I N D I N G        S


                        facility. While this was reported to be traumatic for residents, it did not
                        cause any injuries. However, as with other nursing homes in Florida,
                        this administrator reported that luckily temperatures were fairly cool
                        and residents were able to stay comfortable without air conditioning.



Administrators and staff from selected nursing             All emergency plans from the
                                                           20 selected nursing homes met
homes did not always follow emergency plans
                                                           Federal requirements on their most
 and plans often lacked suggested provisions
                                                           recent State survey. However, we
                        found that procedures followed by administrators and staff during the
                        recent hurricanes were often inconsistent with these emergency plans.
                        Also, the emergency plans were often missing a number of the 25 plan
                        provisions suggested by our informed sources.
                        Administrators perceived their emergency plans as sufficient, but the
                        procedures followed were often inconsistent with their plans
                        Administrators from all 20 selected nursing homes reported that they
                        believed their facility emergency plans were sufficient for managing an
                        emergency response. Additionally, our discussions regarding specific
                        plan provisions suggested that administrators were often not fully
                        aware of the contents of their emergency plans. For example,
                        administrators of 9 of the 20 selected nursing homes indicated that their
                        plans included ensuring adequate food, water, and medication when, in
                        fact, none of these provisions were in their plans.

                        Administrators from 5 of the 20 selected nursing homes reported that
                        they deviated from or worked beyond their emergency plans during the
                        recent hurricanes, either because the plans were not updated with
                        current information or did not include instructions for particular
                        circumstances. Administrators from the remaining 15 nursing homes
                        reported that they largely followed their emergency plans. However,
                        when comparing details of their plans to their reported actions, we
                        found that there was a greater degree of deviation and additions to
                        plans than stated by administrators. For example, staff at one nursing
                        home deviated from its transportation plan by evacuating to an
                        uncontracted host facility closer than the contracted host to reduce
                        resident travel time. In another case, nursing home staff added
                        substantially to its emergency plan. That plan included only a very
                        general description of evacuation procedures, but when faced with
                        evacuation they created a lengthy impromptu plan which included



      OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   16
F   I N D I N G 
S


                      detailed checklists for staff to use in packing supplies and transporting
                      residents.

                      Further, nursing home administrators from our selected nursing homes
                      did not always rely on plans as practical manuals for disaster
                      management. In most cases, nursing home administrators reported
                      that they and their staff improvised actions based on prior experience or
                      their knowledge of the tasks required to meet residents’ needs and
                      ensure their safety. It is important to recognize, however, that facilities
                      cannot guarantee that experienced staff members will be available and
                      able to orchestrate a facility’s response to a disaster.
                      Nursing home emergency plans were often missing a number of the
                      25 suggested plan provisions
                      Although these provisions are not required by CMS or all Gulf States,
                      informed sources, such as State licensing agencies, nursing home
                      associations, emergency managers, and elder care experts, maintain
                      that these provisions strengthen preparedness. Although 15 of the
                      20 selected emergency plans included a majority of the 25 suggested
                      plan provisions, the following are examples of suggested provisions that
                      were missing (see Appendix C for a complete list of the provisions we
                      used in this review and the number of emergency plans that had each):
                      o	 nine plans did not include criteria or other guidance for making the
                          decision to evacuate or shelter in place;
                      o	 fifteen plans did not have information about the specific needs of
                          residents that would allow staff to modify emergency plans
                          according to residents’ needs, such as special equipment (oxygen,
                          feeding tubes), a measure of the level of resident’s mobility, mental
                          status, and bowel/bladder control, and other factors pertinent to
                          transportation, security and care needs, e.g., Alzheimer’s patients
                          require locked units or alarms on doors;
                      o	 six plans did not include instructions for evacuation to an
                          alternative site, such as transportation routes and care of residents
                          in transit;
                      o	 six plans did not include a formal agreement for a host facility to
                          house residents in the event of evacuation;
                      o seven plans   did not include staff responsibilities for evacuating,
                          such as descriptions of which staff are expected to evacuate with
                          residents and under what circumstances;


    OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   17
F   I N D I N G        S


                      o	 thirteen plans did not include provision for water needed during
                           evacuation and six did not include provision for food, either the
                           amount needed or details about transporting the supplies; and
                      o	 eleven plans did not include instructions for reentry following
                           evacuation, such as determining who will inspect the facility to
                           approve reentry, instructions for cleaning and repairs, plans for
                           scheduling staff, and transportation for residents to return.

  Lack of collaboration between State and local                Nursing home administrators,
                                                               local emergency management
emergency entities and nursing homes impeded
                                                               authorities, and other
         emergency planning and management
                                                               community entities reported
                      that limited collaboration in preparing for and managing nursing home
                      emergency preparedness and response to hurricanes sometimes
                      impeded nursing home access to resources and information.

                      When State and local authorities provided assistance to nursing homes,
                      it was typically to review their emergency plans. Four of five Gulf
                      States require nursing homes to submit plans to State or local
                      emergency management agencies for review (Florida, Louisiana,
                      Mississippi, and Texas). We found that these reviews vary in their
                      rigor, but provide an additional layer of oversight by authorities
                      knowledgeable about the specific needs of the area and its residents.
                      Through the review process, emergency managers were often given the
                      opportunity to make recommendations and follow up on resulting
                      changes to the plans. For example, in Florida, emergency managers
                      review nursing home plans to ensure that they meet State guidelines—
                      if the reviewing emergency manager reports that plans do not meet
                      these requirements, the facility can be found deficient by State
                      surveyors. In some cases, reviews appeared to serve an ancillary
                      purpose of helping to develop a line of communication between
                      emergency management staff and nursing homes.
                      Limited collaboration caused communities and nursing homes to miss
                      opportunities for better emergency management and restricted nursing
                      home access to resources
                      Administrators from 5 of the 13 evacuated facilities reported that
                      problems with government coordination during these hurricanes
                      contributed to or exacerbated problems they encountered. For example,
                      some local emergency staff did not return calls from nursing homes
                      seeking assistance. Administrators, community leaders, and emergency
                      managers largely reported that communities accept little responsibility

    OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   18
F   I N D I N G 
S


                      for nursing homes during disasters. Some communities were more
                      involved with nursing homes than others, but in general, nursing homes
                      managed evacuation or sheltering in place without assistance from
                      community authorities. Assistance came from parent corporations,
                      “sister” facilities, or resident and staff family members.
                      Additionally, nursing homes are often not included in community
                      emergency planning. In some cases, this lack of collaboration appears
                      to be caused in part by the fact that nursing homes are categorized by
                      community authorities as businesses rather than as health care
                      institutions. For example, in one community, the city and county
                      organized a task force to explore the needs of vulnerable citizens during
                      disasters. The task force included representation from hospitals and
                      ambulatory care centers, but not from nursing homes. In a smaller
                      community in another State, the county emergency management plan
                      includes provisions for hospitals but does not address nursing homes.

                      Nursing home administrators reported that they view transportation as
                      the most pressing need for community collaboration during disasters.
                      Of special concern is regulating transportation contractors who promise
                      resources to many facilities, and making city and county transportation
                      sources available to residents if needed. Local leaders and advocates
                      frequently mentioned a desire to establish a more comprehensive
                      community transportation plan, including building transportation
                      networks, possibly even across States, and to consider engaging
                      alternative transportation such as unused rail lines. Local authorities
                      in all selected communities reported that they would be willing to
                      participate in coordinating and providing transportation.

                      Another cause of difficulty is that community resources in place for
                      other citizens might not be available to nursing home residents.
                      According to local officials, four of the five Gulf States (Florida,
                      Mississippi, Louisiana, and Texas) discourage or restrict nursing homes
                      from using State special needs shelters as evacuation sites for their
                      residents, reserving the shelters for homebound residents.33 Nursing
                      home residents in Alabama are permitted to evacuate to special needs
                      shelters at the discretion of facility administrators. Community
                      authorities also reported that transportation resources may be
                      restricted for nursing home residents. In these cases, emergency
                      managers assume that nursing home owners have planned for
                      evacuation transportation, and community-based transportation sources
                      are focused on the elderly and others living independently.


    OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   19
F       N 0           N G S


                             The collaboration between community authorities and nursing homes in
                             the same State sometimes differed substantially even though they were
                             faced with similar storm conditions and resource limitations. The
                             ilustration in Box 3 on page 20 contrasts the experiences of nursing
                             homes in two contiguous counties, one with substantial collaboration
                             between the community and nursing homes both prior to and during the
                             storm and the other with little collaboration or direct services.

          Box 3. An Example of the Integration of Nursing Home and Community Emergency Planning
          The first, more rural county had emergency management staff that works closely with nursing home
          administrators and have ongoing informal communication. In addition to reviewing plans, they advise
          nursing homes about improving plans and integrating with community plans as they evolve. Emergency
          managers knew the specific risk factors for each nursing home and were able to advise whether to
          evacuate, to designate special shelters, and to provide emergency generators. Prior to the storm,
          emergency managers in this county made contact with nursing homes to ensure that planned resources
          were in place and assisted the nursing homes with the evacuation and reentry processes.

          In the other, more urban county, emergency managers and nursing homes have more formal
          relationships. They review nursing home emergency plans, but rely on the State to give nursing homes
          feedback regarding the adequacy of the plans. One nursing home administrator reported that "we are
          supposed to send our plan to the (agency), but we are not sure what they do with it." When the hurricane
          struck, this facility decided to shelter in place. They weathered the hurricane and flooding well, but during
          the aftermath, the lack of community support became apparent. This facility subsequently evacuated for
          security reasons and also helped with the evacuation of another facility in the same county that was
          unable to get help from the emergency management agency.
          Source: Summary of interviews with various community and nursing home respondents.




                             State long term care ombudsmen rarely have a direct role in working with
                             area nursing homes in emergency planning
                            All five Gulf States have long term care ombudsmen programs that
                            serve as advocates for nursing home residents. These programs provide
                            indirect assistance during disasters through their routine practice of
                             monitoring occupancy of nursing homes and tracking resident locations.
                            However, ombudsmen programs in four of the five Gulf States do not
                            specifically work with nursing homes on emergency planning or disaster
                            management. In Texas, the one State where the program does perform
                            this role, local ombudsmen review nursing home emergency plans, offer
                            technical assistance, and provide training to nursing home staff on
                            quality of life issues and emergency procedures. In interviews, local
                            ombudsmen from all five States expressed interest in joining community
                            efforts to work with nursing homes regarding emergency management.




    OEI.06.06.00020         NURSING HOME EMERGENCY PREPAREDNESS AND RESPONSE DURING RECENT HURRICANES           20
Δ    R E C O M M E N D A T I O N S                                                                 



                  State surveyors determined that, as of their most recent survey, each of
                  the 20 selected Gulf State nursing homes complied with Federal
                  standards for emergency planning. However, in comparing these plans
                  to a list of suggested emergency plan provisions that we compiled from
                  the informed sources, we found that few plans included all provisions.
                  While these provisions are not required by CMS or Gulf States,
                  numerous informed sources agree that these provisions are critical to an
                  effective emergency plan and, left unaddressed, could jeopardize a
                  nursing home’s response in the face of a disaster.

                  Further, we found that nursing home administrators did not always
                  understand or adhere to emergency plans during their hurricane
                  evacuations. This finding, along with problems identified by these
                  nursing homes during evacuation or sheltering in place, indicate that
                  challenges exist in nursing home emergency planning and plan
                  execution. These challenges center primarily on two areas: (1) nursing
                  home emergency plans do not include all elements needed to guide staff
                  decisions and actions during disasters, and (2) nursing homes are often
                  not actively involved in the community-wide planning and coordination
                  efforts critical to executing an effective disaster response.

                  To improve nursing home emergency preparedness and ensure effective
                  execution of plans, we recommend the following:
                  CMS should consider strengthening Federal certification standards for
                  nursing home emergency plans by including requirements for specific
                  elements of emergency planning
                  While some Gulf States are making efforts to improve their emergency
                  planning, not all of them currently require nursing home plans to include
                  provisions considered critical to an effective emergency plan, according to
                  State licensing agencies, nursing home associations, emergency managers,
                  and elder care experts. In addition, current Federal standards for
                  emergency plans provide only general guidance. Thus, to strengthen
                  emergency planning and to better protect nursing home residents, CMS
                  could develop a core set of required elements for inclusion in nursing home
                  plans with corresponding changes to the Interpretive Guidelines for
                  surveyors’ use in evaluating emergency plans. These required elements
                  could apply to all Medicare or Medicaid certified facilities and be tailored
                  to address specific local risks or could apply to only those facilities in
                  States considered by CMS most at-risk for wide area disasters, such as the
                  hurricanes that recently struck the Gulf States.



OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   21
R   E C O         M M E N D A T                           I O N              S              





                     Based on the experiences of our selected nursing homes, we suggest that,
                     at a minimum, CMS should consider adding core elements to address the
                     following areas. These elements would supplement the broad Federal
                     requirement that nursing homes develop detailed written emergency plans
                     and procedures:
                     o	 Plan for evacuation, including actionable details on travel; provision
                         of supplies; transport of records, medications and belongings;
                         agreement for host facility; and reentry to facility after evacuation.
                     o	 Plan for sheltering in place, including a backup source of electricity
                         and sufficient supplies of food, water, and medications.
                     o	 Plan for addressing specific needs of residents, including needs of
                         residents in hospice care, and of those with Alzheimer’s disease,
                         bowel/bladder problems, and limited mobility.
                     o	 Plan for adequate staffing levels, including clear expectations for
                         relocation, if necessary, and for assistance with residents in an
                         emergency; as well as including provisions for staff’s family
                         members.
                     o	 Plan for collaboration with emergency managers and other
                         community entities to better assure success of emergency plans.

                     In developing this set of core elements, CMS could collaborate with State
                     emergency management entities, nursing home associations, and other
                     parties knowledgeable about nursing home operations or emergency
                     preparedness. To assist nursing homes in incorporating the required
                     elements into their plans, CMS could also create a guide for facility
                     emergency preparedness that provides examples of plan language and
                     considerations for evacuation and sheltering in place, such as CMS’s
                     manual of emergency preparedness for dialysis facilities issued in 2003.34
                     CMS should encourage communication and collaboration between State and
                     local emergency entities and nursing homes
                     To ensure that nursing homes protect residents with effective,
                     community-specific responses to future disasters, CMS should
                     encourage States to enhance community involvement in nursing home
                     emergency planning and plan execution. We recognize that CMS is not
                     responsible for community coordination of emergency efforts, but we feel
                     that CMS’s influence would be beneficial in assisting homes with this
                     effort. CMS action could include providing guidance and technical
                     assistance to States to open a dialogue between nursing home
                     stakeholders and emergency management authorities, encouraging local

OEI-06-06-00020      N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND       RESPONSE DURING RECENT HURRICANES   22
  R   E C O       M M E N D A T                              I O N              S



                   emergency managers to review facility plans, and finding opportunities
                   to raise the awareness of nursing homes’ needs within the community
                   and among government authorities involved in emergency management.
                   This assistance to States should target issues of importance to both
                   facilities and communities, such as transportation and distribution of
                   resources during emergencies. In implementing this recommendation,
                   CMS should consider engaging other relevant staff and resources in the
                   Department, such as AoA’s State Long Term Care Ombudsman
                   Program and the Office of Public Health Emergency Preparedness.



                   AGENCY COMMENTS
                   CMS concurred with both recommendations and outlined efforts
                   underway to implement them. In response to our recommendation that
                   CMS consider strengthening Federal certification standards for nursing
                   home emergency plans, CMS indicated that it was currently reviewing
                   regulatory requirements and interpretive guidelines to determine how
                   they can be strengthened and the most appropriate methods of
                   improving the preparedness standards applicable to health care
                   facilities. CMS also commented that it is in regular communication
                   with States, accrediting organizations, and other stakeholders to
                   determine effective approaches to improve preparedness, ensure the
                   presence of contingency plans, promote coordination with State and
                   local entities, and improve staff training in emergency preparedness.

                   In response to our recommendation that CMS should encourage
                   communication and collaboration between State and local emergency
                   entities and nursing homes, CMS reported that it plans to implement a
                   communication strategy that will disseminate information among State
                   survey agencies, CMS regional offices, and health care facilities.
                   Additionally, CMS reported participation in several departmental and
                   interagency workgroups that are developing recommendations and
                   guidance for improved collaboration and coordination among Federal,
                   State, and local emergency entities. For example, one workgroup is
                   reviewing, assessing, and developing national definitions,
                   recommendations, and targets to address emergency planning, hazard
                   mitigation, and response and recovery for all aspects of health care.
                   Another workgroup is developing recommendations and guidelines
                   regarding the appropriate role, responsibilities, and functions of Survey
                   and Certification central and regional offices, State agencies, and other


OEI-06-06-00020    N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   23
R   E C O        M M E N D A T                         I O N              S


                      State and local emergency management entities to ensure a coordinated
                      and effective emergency response.

                      The full text of CMS comments is in Appendix E.




    OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   24
Δ   E N D N O T E S                                 





                     Government Accountability Office draft report, “Evacuation of
                     1

                  Hospitals and Nursing Homes” (GAO-06-443R). Preliminary findings
                  reported in a briefing for congressional committees on February 16, 2006.

                     Letter from Senator Herb Kohl, ranking member of the Special
                     2

                  Committee on Aging, U.S. Senate, to Daniel R. Levinson, Inspector
                  General, U.S. Department of Health and Human Services,
                  September 26, 2005.

                     3   Social Security Act, sections 1819(f)(1) and 1919(f)(1).

                     4   42 CFR §§ 483.75(m)(1) (plan) and (2) (training).

                    State Operations Manual (SOM), Appendix PP, Interpretive
                     5

                  Guidelines for Long Term Care Facilities, guidance for 483.75(m).

                     Facilities may follow other standards, like those established by the
                     6

                  Joint Commission on Accreditation of Healthcare Organizations
                  (JCAHO), which accredits some nursing homes. JCAHO 2006 Long Term
                  Care Accreditation Standards for Emergency Management Planning.

                     742 CFR § 488.308 (survey frequency) and 42 CFR § 488.330
                  (certification and compliance).

                     8   42 CFR §§ 488.308(a), (e).

                    42 CFR §§ 483.75(m)(1) and (2); SOM, Appendix PP, Interpretive
                     9

                  Guidelines for Long Term Care Facilities.

                      State Operations Manual (SOM), Appendix PP, Interpretive
                     10

                  Guidelines for Long Term Care Facilities, guidance for 483.75(m). The
                  guidelines “provide guidance in conducting surveys and clarify and/or
                  explain the extent of the regulations.”

                     11   42 CFR § 483.75(m)(1).

                     12   42 CFR § 483.75(m)(2).




OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   25
                     13   42 CFR § 488.110(a).

                      The National Fire Protection Agency is a private, nonprofit
                     14

                  organization dedicated to reducing loss of life due to fire.

                     15   Social Security Act, sections 1819(d)(2) and 1919(d)(2).

                     Draft Life Safety Code Survey Interpretive Guidelines to replace
                     16

                  Appendix I of the SOM.

                     Form CMS-2786R (03/04), Fire Safety Survey Report 2000 Code-
                     17

                  Health Care, Medicare/Medicaid.

                      Robert T. Stafford Disaster Relief and Emergency Assistance Act, 42
                     18

                  U.S.C. § 5121(b)(2).

                     19Local and Tribal National Incident Management System Integration,
                  1.0, U.S. Department of Homeland Security.

                     Guide for All-Hazard Emergency Operations Planning (State/Local
                     20

                  Guide 101), September 1996, Federal Emergency Management Agency.

                    42 U.S.C. § 3058g(a)(3)(G)(i). The State Long Term Care
                     21

                  Ombudsman Program is administered by the Administration on Aging.

                      References to “Gulf States” throughout this report include Florida,
                     22

                  Alabama, Mississippi, Louisiana, and Texas.

                      Agency for Health Care Administration Emergency Management
                     23

                  Planning Criteria for Nursing Homes (AHCA 3110-6006).

                      Our selection excludes nursing homes that are currently under
                     24

                  criminal investigation.

                     25Sources of guidance included interviews with emergency managers in
                  all five Gulf States and with professors of emergency management from
                  Oklahoma State University, Seton Hall University, and the University of
                  North Texas, as well as professors of aging services from Florida
                  International University. Guidance was also drawn from published




OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   26
                  works in The Gerontologist, Quick Response Research Report, Southern
                  Medical Journal, and the American Journal of Public Health.

                     26Wecounted each nursing home surveyed in 2004 and 2005 only once,
                  although they were surveyed more than one time. These figures
                  represent all facilities that were cited with the relevant deficiencies,
                  whether they had a single citation or multiple citations.

                     27Life Safety Code surveys focus on ensuring that facilities meet “fire
                  protection requirements designed to provide a reasonable degree of
                  safety…the [requirement] covers construction and operational features
                  designed to provide safety from fire, smoke, and panic.” Standard
                  surveys assess: “[c]ompliance with residents’ rights and quality of life
                  requirements; [t]he quality of care and services furnished…; and [t]he
                  effectiveness of the physical environment to empower residents,
                  accommodate resident needs, and maintain resident safety….” (SOM,
                  Appendix P.)

                     We did not have the most recent survey data when we selected
                     28

                  nursing homes.

                      Based on discussions with Gulf State Surveyors in March 2006 and a
                     29

                  review of CMS Form 2567.

                      Both were in Mississippi, where State law requires that the decision
                     30

                  to shelter in place or evacuate is made by local emergency managers.

                      Emergency plans for 9 of the 20 selected homes included serving as a
                     31

                  host facility for other facilities that evacuate.

                     32One of the destroyed facilities will be rebuilt, but owners of the other
                  facility determined that it would remain closed.

                      Special needs shelters are temporary shelters for those with physical
                     33

                  or mental conditions that make it difficult to utilize a public shelter.

                     “Emergency Preparedness for Dialysis Facilities,” CMS Manual
                     34

                  11025, CMS, 2003.




OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   27
Δ   A P P E N D I X                               A


                  Summary of Major Gulf State Requirements
                  for Nursing Home Emergency Plans

                     Table A1. Gulf State Requirements for Nursing Home Emergency Plans


                    State Requirements                                                         AL*       FL       LA         MS    TX
                    Community coordination                                                               3        3          3     3

                    Hazard analysis                                                                       3                  3     3
                    Communication                                                                         3                  3     3
                    Direction and control                                                                 3        3         3     3
                    Specific resident needs                                                               3        3               3
                    Staffing                                                                              3        3               3
                    Emergency food, water, supplies                                                       3        3         3     3
                    Emergency power                                                                       3                  3     3
                    Medications                                                                           3                  3     3
                    Evacuation procedures                                                                 3        3         3     3
                    Evacuation route                                                                      3                        3
                    Transportation                                                                        3        3         3     3
                    Host facility agreement                                                               3        3         3     3
                    Transfer of medical records                                                           3                        3
                    Reentry                                                                               3                  3

                    Document training and drills                                                          3        3         3     3
                    Reviewed annually                                                                     3        3               3
                    Staff telephone lists                                                                 3        3

                    Responding to family inquiries                                                        3        3
                    Individual identification of residents                                                3

                    Designated area for supply storage                                                             3

                  *Alabama relies on Federal requirements.
                  Source: Office of Inspector General analysis of State administrative code and requirements in four Gulf States, 2006.




OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES        28
ΔA   P
      A PP EP NE DN I DX I XB                    B            



                        DETAILED METHODOLOGY

                       Identification of Hurricane Impacted Sites

                       Hurricane-impacted sites were selected using information from the
                       National Hurricane Center. Information was reviewed for all
                       hurricanes that made landfall along the U.S. border during 2004 and
                       2005 and that were at least Category 3 strength on the Saffir-Simpson
                       Scale, a 1 – 5 rating of intensity as measured by wind speed. A
                       Category 3 hurricane has winds of 111 to 130 miles per hour and
                       anticipated storm surge of 9 to 12 feet above normal. During the
                       2 years specified there were a total of 10 hurricanes that made landfall
                       in the United States and 7 were of significant strength to require mass
                       evacuation.

                       Four hurricanes in five States were selected for review: Ivan in
                       Alabama, Rita in Texas, and Katrina in Louisiana and Mississippi.
                       Wilma was selected out of the four hurricanes in Florida because it was
                       the most recent that met our criteria (see Appendix D for detailed
                       information about each of the selected hurricanes).
                       Site Selection

                       The counties included in our site visits were selected based on proximity
                       to where the hurricane made landfall. To potentially identify
                       differences within States, we made efforts to select two counties in each
                       of the five states. Table B1 provides community, hurricane, and nursing
                       home information for each county. Our final selection was as follows:

                       •	     Alabama—Baldwin and Mobile Counties were both significantly
                              impacted when hurricane Ivan came ashore in Baldwin County.
                       •	     Florida—Collier County is the location in Florida where hurricane
                              Wilma made landfall. Lee County is directly north of Collier County
                              and was chosen because of its proximity to Collier County and the
                              high number of nursing homes located there.

                       •	     Louisiana—Site selection in Louisiana was complicated by several
                              factors. Katrina first made landfall in Plaquemines Parish, but this
                              site was excluded because there is only one nursing home. St.
                              Bernard Parish and Orleans Parish, the sites of numerous nursing
                              home disasters, were excluded because most facilities were closed at
                              the time of data collection. Jefferson and St. Tammany Parishes
                              were chosen because of their locations—both experienced significant


     OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   29
 A     P     P E N D           I X              B


                                        impact from Katrina and had a sufficient number of nursing homes
                                        that were operational at the time of data collection.

                                 •	     Mississippi—Hancock and Harrison Counties were the most
                                        severely affected by Hurricane Katrina. Hurricane Katrina made
                                        landfall at the border of Louisiana and Mississippi in Hancock
                                        County.

                                 •	     Texas—Harris County is near where Hurricane Rita made landfall
                                        and includes a large metropolitan area. A second county was not
                                        selected because of the large size of Harris County and the option of
                                        selecting two distinct areas within this county for review.


  Table B1: Selected Counties and Nursing Home Numbers

                                                                                                              Number of Nursing Homes
     State          County             Population*                  Hurricane                 Evacuate          Evacuate         No
                                                                                               Before             After      Evacuation     Total
     AL             Baldwin               156,701                       Ivan                     2                  0             4           6
     AL              Mobile               400,526                       Ivan                     2                  0            14          16
     FL              Collier              296,678                      Wilma                     3                  0             7          10
     FL               Lee                 514,295                      Wilma                     2                  0            16          18
     LA            Jefferson              453,590                      Katrina                   8                  5             0          13
     LA          St. Tammany              213,553                      Katrina                   5                  1             3           9
     MS            Hancock                45,933                       Katrina                   1                  1             0           2
     MS            Harrison               192,393                      Katrina                   1                  0             5           6
      TX             Harris              3,644,285                       Rita                       35              0             36        71
                                                                          TOTAL                     59              7             85        151
*Population information is based on 2004 Population Estimates from the U.S. Census Bureau.
Source: Office of Inspector General analysis of all nursing homes in selected counties, 2006.




                                 Facility Selection

                                 Twenty nursing homes (four in each state) were purposefully selected
                                 based on their diversity regarding a variety of factors, including size,
                                 ownership, and past State survey performance on emergency
                                 preparedness measures. OSCAR data were used to obtain lists of
                                 nursing homes that had deficiencies for emergency preparedness in
                                 surveys conducted in 2003 and 2004. We diversified the selection by the
                                 size of the facility, type of ownership, and whether it was a chain.
                                 (See Table B2 for nursing home details.)




      OEI-06-06-00020            N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES           30
A   P   P E N D       I X             B           





                          Table B2. Selected Nursing Home Characteristics

                          Facility ID                  Evacuate               Size                  Ownership          Chain         County
                         Alabama 1                    Before                  127             For-profit Corporation    Yes       Mobile
                         Alabama 2                    No                      174             For-profit Individual     Yes       Mobile
                         Alabama 3                    Before                  131             For-profit Corporation    Yes       Baldwin
                         Alabama 4                    No                       75             Nonprofit Corporation     Yes       Baldwin
                         Florida 1                    Before                  120             Nonprofit Other           No        Lee
                         Florida 2                    No                       85             Nonprofit Corporation     No        Lee
                         Florida 3                    Before                   97             For-profit Corporation    No        Collier
                         Florida 4                    No                       117            For-profit Corporation    Yes       Collier
                         Louisiana 1                  Before                   158            For-profit Corporation    Yes       Jefferson
                         Louisiana 2                  After                    276            For-profit Corporation    Yes       Jefferson
                         Louisiana 3                  Before                   116            For-profit Corporation    No        St. Tammany
                         Louisiana 4                  No                       192            For-profit Corporation    Yes       St. Tammany
                         Mississippi 1                Before                   99             For-profit Partnership    No        Hancock
                         Mississippi 2                After                    132            For-profit Corporation    Yes       Hancock
                         Mississippi 3                Before                   180            For-profit Corporation    Yes       Harrison
                         Mississippi 4                No                       60             For-profit Corporation    Yes       Harrison
                         Texas 1                      Before                   105            Nonprofit Corporation     No        Harris
                         Texas 2                      Before                   120            For-profit Partnership    Yes       Harris
                         Texas 3                      Before                    63            For-profit Corporation    No        Harris
                         Texas 4                      No                       290            Nonprofit Corporation     No        Harris
                       Source: Information about facility size, ownership, chain status and location was obtained from the CMS Nursing
                       Home Compare Web site, 2006.




                       Within each State, we selected two facilities that evacuated and two
                       that sheltered in place. We subsequently found that two of the facilities
                       that sheltered in place during the hurricane evacuated after the storm,
                       and one of the facilities that we thought sheltered in place actually
                       evacuated before the storm.
                      Data Collection
                       Database. We used CMS’s OSCAR database of State surveys to
                       determine nursing homes in Gulf States and nationwide that received
                       deficiencies in 2004 or 2005 for insufficient emergency plans and failure
                       to adequately train staff for emergencies. OSCAR maintains
                       information on the four most recent standard surveys of certified
                       nursing facilities nationwide, as well as complaint-generated surveys.
                       These data were obtained in March 2006.
                       Site Visits. Two team members completed site visits to each of the five
                       States to conduct interviews and collect documentary evidence.
                       Interviews. We visited 20 nursing homes—4 in each of the 5 States. We
                       used a structured interview protocol to conduct onsite interviews with
                       administrators, directors of nursing, certified nursing assistants, and

    OEI-06-06-00020    N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES          31
    A    P    P E N D             I X               B



                                 other staff that were involved in execution of the emergency plans. We
                                 asked respondents about their emergency plans, staff training,
                                 evacuation orders during the specified hurricane, and what aspects of
                                 their plans contributed to positive and negative outcomes. We asked
                                 nursing homes about their decisions to evacuate or shelter in place, and
                                 their experiences before, during, and in the aftermath of the hurricane.
                                 During each site visit, we also used a structured interview protocol to
                                 interview relevant municipal and other officials in each of the cities and
                                 counties. These respondents are detailed in Table B3.

                                 Interview questions included community emergency planning and
                                 response, the nature of evacuation orders, local requirements for
                                 nursing homes, assistance provided to nursing homes, implementation
                                 of emergency plans during the specified hurricane, and their reflections
                                 on the response of local nursing homes to the specified hurricane.


  Table B3. Community Entity Respondents

              Respondent Affiliation*                       Alabama                Florida              Louisiana   Mississippi    Texas         Total
  City Manager/Mayor’s Office                         1                          2                      3           1             3         10
  County Emergency Managers                           2                          2                      2           2             1         9
  City Emergency Managers                             0                          1                      0           0             2         3
  Fire Department                                     2                          2                      4           3             2         13
  Police Department                                   2                          2                      1           2             1         8
  Area Agency on Aging                                1                          1                      2           1             1         6
  Long Term Care Ombudsman                            1                          1                      1           1             1         5
  Public Health Department                            2                          1                      0           2             1         6
  Nursing Home Surveyors                              0                          0                      1           0             0         1
  Total                                               11                         12                     14          12            12        61
Source: Office of Inspector General analysis of community officials where our selected nursing homes are located, 2006.
*Totals reflect the number of respondent organizations. Many organizations sent more than one representative.



                                 Documentary Evidence. At each of the 20 selected nursing homes, we
                                 obtained copies of emergency plans, transportation contracts, host
                                 agreements, training logs for 2005, and other relevant hurricane-related
                                 documents. We also obtained hurricane-related documents and copies
                                 of community emergency plans from community entity respondents in
                                 each of the locations of selected facilities.
                                 Telephone Interviews. We conducted telephone interviews with officials
                                 from State agencies for each of the five States where our selected
                                 nursing homes are located. For each State, we interviewed officials
                                 from the emergency management office, the nursing home licensing
                                 division that surveys facilities, nursing home associations (often
                                 multiple), departments of aging services, and Long Term Care


     OEI-06-06-00020             N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES          32
A   P   P E N D       I X             B


                       Ombudsman Program. We used a structured interview protocol to ask
                       questions about their roles and responsibilities for emergency planning,
                       actions taken during the specified hurricane, the nature of evacuation
                       orders, State nursing home requirements, and assistance provided to
                       nursing homes for development and execution of emergency plans. We
                       requested and received copies of State Administrative Codes for nursing
                       home emergency preparedness, model plans, guidance they provide to
                       nursing homes, and other relevant documents.

                       We also interviewed State surveyors to obtain information regarding
                       how they review emergency plans and emergency training procedures,
                       and how they determine deficiencies and their scope and severity.
                      Data Analysis

                       Quantitative Analysis. For our review of survey deficiencies, we used
                       standard and complaint survey data from January 1, 2004, through
                       December 31, 2005, to obtain frequencies for deficiencies F517, F518,
                       K48, and K50. Whenever possible, interview and documentary evidence
                       data were quantified and entered into Microsoft Access or Microsoft
                       Excel and analyzed quantitatively using frequencies.
                       Qualitative Analysis. We analyzed interview responses and documentary
                       evidence using qualitative analysis methods.
                       •	   Interview Responses. Interview notes were entered into a Microsoft
                            Access database, then reviewed to identify issues and themes.
                       •	   Documentary Evidence. Each emergency plan, transportation contract,
                            host agreement, and other documentation was reviewed by two
                            analysts to determine whether they included the suggested provisions
                            described in Table C1 of Appendix C. Analysts compared review
                            results and conferred to reach consensus regarding discrepancies.
                       •	   Cross-Source Analysis. Information from documentary evidence was
                            compared with interview responses where relevant. For example,
                            responses regarding contracts were compared with documentary
                            evidence of the contract. Interview responses were also compared
                            across sources. For example, the nature of the evacuation order as
                            perceived by both community leaders and nursing home staff.
                       Data Limitations
                       Although steps were taken to diversify our selection of hurricanes,
                       communities, and nursing homes, their purposive selection does not
                       allow inference of results either to the Gulf States or the Nation.


    OEI-06-06-00020    N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   33
Δ   A P P E N D I X                              C            


                  Suggested Provisions for Nursing Home
                  Emergency Plans
                  To assess the content of emergency plans from selected nursing homes,
                  we compiled a list of suggested emergency plan provisions to compare to
                  the actual plans. We generated the list from our review of provisions
                  suggested by a number of informed sources, listed by category below.
                  Table C1 describes each of the suggested provisions and also indicates
                  the number of selected nursing homes’ emergency plans that included
                  that provision. Each provision was suggested by at least two sources
                  and most provisions were suggested by many of the sources.

                  Informed sources used to compile the suggested provisions were:
                  o   State Requirements and Guidelines: State requirements were
                      obtained from Florida Administrative Code, Chapter 59A;
                      Mississippi Administrative Code, Section E; Louisiana Survey
                      Criteria for Nursing Home Emergency Preparedness Plans HHS
                      NH-06; and Texas Administrative Code, Title 40, Part 1, Chapter
                      19, Subchapter D, Rule §19.326. State guidelines were Florida’s
                      Agency for Health Care Administration’s Emergency Management
                      Planning Criteria for Nursing Homes, Mississippi Emergency
                      Disaster Planning Criteria for Nursing Home Facilities and
                      Personal Care Homes, and the Louisiana Model Nursing Home
                      Emergency Plan.
                  o   Professional Associations: Information from professional
                      associations included the American Health Care Association; the
                      Florida Health Care Association; a hurricane summit held in
                      Tallahassee, Florida, in February 2006 sponsored by the John A.
                      Hartford Foundation and the American Association of Retired
                      Persons; and the 2006 Long Term Care Accreditation Standards for
                      Emergency Management Planning issued by the Joint Commission
                      on Accreditation of Healthcare Organizations.
                  o   Expert Interviews: Interview respondents included emergency
                      management agency officials in Gulf States, professors of
                      emergency management from Oklahoma State University, Seton
                      Hall University, the University of North Texas, and professors of
                      aging services from Florida International University.
                  o   Professional Publications: Articles reviewed were from Quick
                      Response Research Report, Southern Medical Journal, and
                      American Journal of Public Health.


OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   34
 A    P      P E N D            I X              C           





  Table C1. Suggested Provisions Contained in 20 Selected Nursing Home Emergency Plans

                                                                                                                                         Number of
          Provision                                                     Description of Provision
                                                                                                                                        Plans (n=20)
  General Provisions
                                   Details specific vulnerabilities of the facility, such as close proximity to
  Hazard Analysis                                                                                                                            17
                                   water and low elevation; accounts for various threats to the facility.
                                   Establishes a command post in the facility; defines management for
  Direction and Control                                                                                                                      15
                                   emergency operations.
  Decision Criteria                Includes factors to consider in deciding to evacuate or shelter in place.                                 11
  Communication                    Specifies clear communication protocols and backup plans.                                                 11
  Staff Family Members             Indicates whether staff family can shelter at the facility and evacuate.                                  7
  Community
                                   Procedures for working with local emergency manager; submitting plan.                                     7
  Coordination
  Specific Resident
                                   Contains lists that include resident medical and personal needs.                                          5
  Needs
  Provisions for Sheltering in Place
                                   Details measures to secure building against damage; especially for
  Securing the Facility                                                                                                                      17
                                   facilities sheltering in place.
                                   Specifies backup power, including generators and accounts for
  Emergency Power                                                                                                                            19
                                   maintaining a supply of fuel.
  Food Supply                      Details the amounts and types of food on hand.                                                            19
  Water Supply                     Details having potable water available (recommended amounts vary).                                        18
  Staffing                         Designates key personnel in emergencies and prepares assignments.                                         17
  Medication                       Specifies maintaining extra pharmacy stocks of common medications.                                        15
  Serving as a host facility       Describes hosting procedures and details ensuring 24-hour operations.                                     9
  Provisions for Evacuation
  Transportation Contract          Includes current contract(s) with vendors for transportation.                                             17
  Evacuation Procedures            Details contingency plans, policies, roles, responsibilities, and procedures.                             14
  Host Facility Agreement          Includes current contract(s) to facilities, relocation to “like” facilities.                              14
  Food Supply                      Describes adequate supply and logistical support for transporting food.                                   14
                                   Describes logistics for moving medications—including specification for
  Medications                                                                                                                                14
                                   moving them under the control of a registered nurse.
  Transfer of Medical              Details having the resident’s medical records available; describes logistics
                                                                                                                                             14
  Records                          for moving medical records.
  Staffing                         Specifies procedures to ensure staff accompany evacuating residents.                                      13
  Resident Personal
                                   Includes list of items to accompany residents.                                                            12
  Belongings
                                   Identifies who authorizes reentry, procedures for inspecting facility, and
  Reentry                                                                                                                                    9
                                   details transportation from the host facility.
  Water Supply                     Specifies amount of water taken and logistical support.                                                   7
                                   Identifies evacuation routes and secondary routes, includes maps and
  Evacuation Route                                                                                                                           5
                                   specifies expected travel time.
Source: Office of Inspector General analysis of content of expert interviews, professional publications, professional association guidance, and
State regulations and review of 20 selected Gulf State nursing home emergency plans, 2006.



     OEI-06-06-00020              N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES        35
     Δ            A P P E N D I X                                          D

                                    DESCRIPTIONS OF SELECTED HURRICANES
                                    Prior to selecting communities and nursing homes, we selected four
                                    hurricanes that affected the Gulf States during 2004 and 2005: Ivan,
                                    Katrina, Rita, and Wilma (see Table E1 for hurricane characteristics).1


  Table D1. Selected Hurricanes and Their Characteristics
   Name          Cat          Date                      Location                     Max                            U.S.        Est.               Notice
                                                                                    Surge              Rain        Deaths       Cost      Watch         Warning
  Ivan            3        09/16/04              Gulf Shores,                       15 ft             3-7 in             25    $14.2      51 hrs         42 hrs
                                                 Alabama                                                                       Billion
  Katrina         3        08/29/05              Louisiana/                         28 ft            10-12 in         1,336     $75       44 hrs        32 hrs
                                                 Mississippi Border                                                            Billion
  Rita            3        09/24/05              Louisiana/Texas                    15 ft              15 in             62     $10       58 hrs        40 hrs
                                                 Border                                                                        Billion
  Wilma           3        10/24/05              Cape Romano,                       8 ft               7 in               5    $12.2      38 hrs        32 hrs
                                                 Florida                                                                       Billion
Source: National Weather Service, National Hurricane Center, 2006.



                                    Ivan. Ivan reached Category 5 strength 3 times before making landfall
                                    as a Category 3 hurricane just west of Gulf Shores, Alabama, on
                                    September 16, 2004, costing approximately $14.2 billion in damage.
                                    The eye diameter was 40-50 Nautical miles, resulting in high winds
                                    over a narrow area near the Alabama/Florida border. The high surf and
                                    wind caused extensive damages to Innerarity Point and Orange Beaches
                                    in Alabama.
                                    Katrina. Katrina was the costliest and third deadliest hurricane in the
                                    United States since 1900, and one of the most devastating natural
                                    disasters in U.S. history. While in the Gulf of Mexico, Katrina reached
                                    Category 5 intensity; however, it weakened to Category 3 (just below the
                                    Category 4 threshold) when it made landfall near the Pearl River at the
                                    Louisiana/Mississippi border on August 29, 2005. Over 1.2 million
                                    people along the Gulf coast from Louisiana to Alabama were under an
                                    evacuation order, but the number that actually evacuated is unknown.
                                    The storm surge penetrated at least 6 miles inland in many parts of
                                    coastal Mississippi and up to 12 miles inland along bays and rivers,
                                    crossing Interstate 10 in many locations. Interstate 10 is often the
                                    barrier used for mandatory evacuation, with everything south being
                                    evacuated. In addition to the Gulf storm surge, Lake Ponchartrain rose


                               1   National Weather Services National Hurricane Center Tropical Prediction Center, 2006.



         OEI-06-06-00020            N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES           36
A   P   P E N D       I X            D


                      and pushed several feet of water into communities along its
                      northeastern shores, and strained the levee system in New Orleans.
                      Eventually the levees were breached, flooding over 80 percent of New
                      Orleans to depths up to 20 feet.

                      An estimated 1,336 deaths have been directly or indirectly attributed to
                      Katrina. As of December 2005, more than 4,000 persons were still
                      reported missing, so it is probable that the number of direct fatalities
                      may never be known. Katrina left 3 million people without electricity,
                      some for several weeks. The economic ramifications have been
                      widespread and could be long lasting.
                      Rita. Rita also reached Category 5 strength over the Gulf of Mexico,
                      weakening to Category 3 prior to making landfall near the
                      Texas/Louisiana border on September 24, 2005. According to the
                      National Weather Service, Rita produced a storm surge of 15 feet.
                      In the wake of Katrina, the approach of Rita led to one of the largest
                      evacuations in U.S. history. The number of evacuees in Texas may have
                      exceeded 2 million. Seven fatalities were directly related to Rita, and an
                      additional 55 indirectly related, including more than 20 evacuating
                      nursing home residents killed in a bus accident.
                      Wilma. Wilma made landfall in southwestern Florida near Cape
                      Romano on October 24, 2005, as a Category 3 hurricane. Coastal Collier
                      County experienced storm surges up to 8 feet. It moved quickly across
                      southern Florida and damage was unusually widespread. Not only was
                      Wilma responsible for 5 deaths, it also caused the largest disruption of
                      electrical service ever in Florida, with an estimated 98 percent of south
                      Florida losing electrical service.




    OEI-06-06-00020   N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   37
 ..        A P PEN D                                    x       E

                                                                     AGENCY CO:MENTS




      (~
      ,~~~
                  DEPAR'fENJ"('F1IÊALTH & HUMAN SERVICES


                         . '; ..~ '. :",_ '3 ~,
                                                  .,'i\G: ~S
                                                                                                  Cenlers for Medicare & Medicaid Services


                                                                                                  Administrator
                                                                                                  Washington, DC 20201
                                        ", .: .. ::.:~\ on
                         .~ Fl0 ~'.. \~ ~J ~'~:i':.. LJUL 2 8
                         . VC.\..l~'                            2006
                  DATE:

                  TO:                                DaJel R. Levinson
                                                     Inspector General
                                                     Offce ofInspector General ~ ~ A
                  FROM:                              Marka. MCClellan,M.D.,Ph.D~ / m~
                                                     Administrator

                  SUBJECT:                           Offce of Inspector General Draft Report: "Nuring Home
                                                     Emergency Preparedess and Experiences Dung Recent
                                                     Hurrcaes," (OEI-06-06-00020)

                  Than you for the opportity to review and comment on the above referenced Offce of
                  Inspector General (OIG) draft report regarding nursing home preparedness in the Gulf
                  Staes during the recent hurcanes. The OIG's thorough assessment utilized multiple
                  sources of information, such as surey data both nationally and for the Gulf States
                  (Alabama, Florida, Louisiana, Mississippi, and Texas); on-site interviews of nursing
                  home sta, local authorities and other staeholders; emergency plans for twenty selected
                  nursing homes that were afected by hurcanes in the five Gulf States; and a list of
                  suggested emergency preparedness provisions compiled from recommendations of a
                  varety of informed sources.


                  The Centers for Medicare and Medicaid Services (CMS) appreciates the contributions
                  and valuable input by the OIG to ensure resident and sta safety. We have reviewed your
                  findings and recommendations. Your recommendations are consistent with steps we are
                  already taking to improve emergency prepardness. Our plan of action to your
                  recommendations follows.

                  OIG Recommendation

                  CMS should consider strengthening Federal certfication stadards for nuring home
                  emergency plan by including requirements for specific elements of emergency planng.

                  eMS ResDonse

                  We concur. We have been reviewing our regulatory requirements and interpretive
                  guidelines to determine whether and how they can be strengthened. The OIG report is
                  extremely helpfu as we complete ths review. Regulatory changes may be undertaken as
                  a long-term strategy while other strategies can be taen in the short-term to ensure
                  resident and staf safety.




OEI.06.06.00020       NURSING HOME EMERGENCY PREPAREDNESS AND RESPONSE DURING RECENT HURRICANES                                      38
A P PEN D                x           E




                   Page 2 - Daniel R. Levinson


                   Several workgroups within CMS have been reviewing.the curent Federál emergency
                   preparedness requiements to determine the most appropriate methods of improving the
                   preparedness stdards applicable to health care facilties. The CMS also paricipates in
                   the National Fire Protection Association (NFPA) and is supportng efforts by the NFPA
                   to promote enhanced preparedness. We are also in regular communication with States
                   and Accrediting Organations to determne the most effective approaches that will
                   improve preparedness, ensure the presence contingency plans, promote coordination with
                   State and local entities, and improve staff training regarding emergency preparedness.

                   OIG Recommendation

                   CMS should encourage communication and collaboration between State and local
                   emergency entities and nursing homes.

                   eMS ResDonse

                   We concur. We are planing to implement a communication stategy to disseminate
                   policies, procedures, interpretive guidance, and other communcations with State Surey
                   Agencies (SAs), CMS Regional Offce~ and health care facilities. The CMS will
                   encourage State and local emergency agency. collaboration and coordination through such
                   communcations.

                   The CMS is also paricipating in several Deparent of      Heath and Human Services
                   (DHHS) and interagency workgroups that are developing recommendations and gudace
                   for improving coordination and collaboration among Federal, State and local emergency
                   entities. In parcular, the DHHS Long-Term Healthcare Working Group, supported by
                   the Deparent of    Homeland Security, includes representatives from varous emergency
                   response agencies, such as Federal Emergency Management Agency, National Disaster
                   Medcal System, Veterans Affairs, U.S. Coast Guard, Centers for Disease Control and
                   Prevention, Public Health Services, Admnistration on Aging, Admistration for
                   Children and Famlies, and CMS, as well as State Offce of Emergency Management and
                   health care provider associations representatives.

                   The purse of   ths workgroup is to review, assess and develop nationa definitions,
                   recommendations and tagets for aU aspects of  health care (both facilty and communty-
                   based) to address emergency planing, hazd mitigation, response and recovery.

                   Another workgroup, the CMS Surey and Certification Interagency Role and Integration
                   Workgroup, is in the process of developing recommendations and guidelines regarding
                   the appropriate role, responsibilties and functions of Survey and Certification Central
                   and Regional Offces, SAs, and other State and local emergency management entities to



                                                                    2




 OEI.06.06.00020       NURSING HOME EMERGENCY PREPAREDNESS AND RESPONSE DURING RECENT HURRICANES             39
A P PEN D               x       E




                   assist in the development and partnering that must occur to implement a coordinated,
                   collaborative and effective emergency response.
                   Page 3 - Daniel R. Levinson

                   Again, we than the OIG for their suggestions and welcome the opportunity to make such
                   improvements in the Medicae and Medicaid programs. These suggestions wiU be
                   incorporated into the implementation process for Medicare and Medicaid with a
                   consideration for the need to provide quality care to nursing home residents durng both
                   stable and disruptive events.




                                                              3




 OEI.06.06.00020      NURSING HOME EMERGENCY PREPAREDNESS AND RESPONSE DURING RECENT HURRICANES              40
Δ         A C K N O W L E D G M E N T S 





                  This report was prepared under the direction of Judith V. Tyler, Regional
                  Inspector General for Evaluation and Inspections of the Dallas regional
                  office, and Kevin Golladay, Deputy Regional Inspector General of the
                  Dallas regional office. Other principal Office of Evaluation and
                  Inspections staff who contributed include:



                   Susan Wolfe, Ph.D., Project Leader
                   Ruth Ann Dorrill, Team Leader

                   Sarah Craren, Ph.D., Program Analyst

                   Sandy Khoury, Program Specialist

                   Mark Richardson, Program Specialist




OEI-06-06-00020    N U R S I N G H O M E E M E R G E N C Y P R E PA R E D N E S S   AND   RESPONSE DURING RECENT HURRICANES   41
